FILED: March 3, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No, 19-1705
____(4:16-cv-03326-RBH)

CLARA LEWIS BROCKINGTON
Plaintiff - Appellant
v.
S.C. DEPARTMENT OF SOCIAL SERVICES; REESE PALMER
Defendants - Appellees

ORDER
Upon consideration of submissions relative to the motion for reconsideration,
the court denies the motion.
Entered at the direction of the panel: Judge Wilkinson, Judge Richardson,
and Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor, Clerk

b
FILED: December 5, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1705
(4:16-cv-03326-RBH)

CLARA LEWIS BROCKINGTON
Plaintiff - Appellant
v.
S.C. DEPARTMENT OF SOCIAL SERVICES; REESE PALMER
Defendants - Appellees

ORDER
Upon consideration of the motion for an extension of time in which to file a
petition for rehearing, the court grants a 15-day extension of time. No further
extensions will be granted for filing of a petition for rehearing absent a showing of
extraordinary circumstances.
For the Court—By Direction
/s/ Patricia S. Connor. Clerk

L.-r

FILED: November 21, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1705
(4:16-cv-03326-RBH)

CLARA LEWIS BROCKINGTON
Plaintiff - Appellant
v.
S.C. DEPARTMENT OF SOCIAL SERVICES; REESE PALMER
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

M

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1705
CLARA LEWIS BROCKINGTON,
Plaintiff - Appellant,
v.
S.C. DEPARTMENT OF SOCIAL SERVICES; REESE PALMER,
Defendants - Appellees.

Appeal from the United States District Court for the District of South Carolina, at Florence.
R. Bryan Harwell, Chief District Judge. (4:16-cv-03326-RBH)
Submitted: November 19, 2019

Decided: November 21, 2019

Before WILKINSON and RICHARDSON, Circuit Judges, and TRAXLER, Senior Circuit
Judge.
Affirmed by unpublished per curiam opinion.
Clara Lewis Brockington, Appellant Pro Se. George A. Reeves, III, FISHER & PHILLIPS,
LLP, Columbia, South Carolina, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Clara Lewis Brockington appeals the district court’s order denying her motion for
an extension of time and denying relief under Fed. R. Civ. P. 60(b). We have reviewed the
record and find no reversible error. Accordingly, we affirm for the reasons stated by the
district court. Brockington v. South Carolina Dep’t of Soc. Servs., No. 4:16-cv-03326RBH (D.S.C. June 18, 2019). We dispense with oral argument because the facts and legal
contentions are adequately presented in the materials before this court and argument would
not aid the decisional process.
AFFIRMED

2

®f)e H>outf) Carolina Court of appeals;
POST OFFICE BOX 11629
COLUMBIA, SOUTH CAROLINA 29211
1220 SENATE STREET
COLUMBIA, SOUTH CAROLINA 29201
TELEPHONE: (803)734-1890
FAX: (803)734-1839
www.sccourts.org

JENNY ABBOTT KITCHINGS
CLERK
V. CLAIRE ALLEN
DEPUTY CLERK
8.

June 24,2019

-The-Honorable -Amy Braey ----------Worker's Compensation Commission
Post Office Box 1715
Columbia SC 29202

&

REMITTITUR
Re:

Clara Brockington v. SCDSS
Lower Court Case No. 1509277
Appellate Case No. 2019-000801

Dear Clerk-of Court:
The above referenced matter is hereby remitted to the lower court or tribunal. A
copy of the judgment of this Court is enclosed.
Very truly yours,

jt'

Enclosure
cc:

Clara L. Brockington,
James Edward Lawrence Fickling, Esquire
Kevin Desmond Maroney, Esquire

4:16-cv-03326-RBH

Date Filed 02/13/19

Entry Number 100

Page lot 13

t
UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
FLORENCE DIVISION
)

CLARA LEWIS BROCKINGTON,

)
)
)
)
)
)

Plaintiff,
-vsSOUTH CAROLINA DEPARTMENT
OF SOCIAL SERVICES and REESE
PALMER,
Defendant.

I.

Civil Action No. 4:16-cv-3326-RBH-TER

REPORT AND RECOMMENDATION

)
)
)
)
)

INTRODUCTION
This action arises out of Plaintiffs former employment with Defendant South Carolina

Department of Social Services (DSS). Plaintiff, who is proceeding pro se, alleges that Defendant
terminated her employment because of her age in violation of the Age Discrimination in
Employment Act (ADEA), 29 U.S.C. § 621 et seq, She also alleges that Defendant violated the
South Carolina Workers’ Compensation Act (SCWCA), S.C.Code Ann. § 42-1-540, et al., and she
seeks compensation for damages she sustained in the parking lot of DSS. Presently before the court
is Defendants’ Motion for Summary Judgment (ECF No. 68). Because she is proceeding pro se,
Plaintiff was advised pursuant to Roseboro v. Garrison, 528 F.3d 309 (4th Cir. 1975), that a failure
to respond to the moving Defendant’s motion could result in dismissal of her case.
Plaintiff filed a Response (ECF No. 80) but argued that the documents Defendants provided
in discovery were not responsive to her requests, and she could not respond to the Motion for
Summary Judgment until she received the documents she requested. The undersigned entered an
order noting that Plaintiff had not previously raised the issue of the sufficiency of Defendants’

4:16-cv-03326-RBH

Date Filed 02/13/19

Entry Number 100

Page 2 of 13

responses in a motion to compel, and even if the court were to construe her response as a motion to
compel, it would not be timely under the scheduling order. The undersigned gave Plaintiff an
additional ten days to file a response to Defendants’ Motion for Summary Judgment. On the day
Plaintiffs Response was due, February 11, 2019, Plaintiff filed a Motion for Extension of Time
(ECF No. 89), stating that she had not received the order until February 7, 2019, and needed an
extension to respond. The undersigned denied the motion but noted that Plaintiff could file any
response as part of her objections to the Report and Recommendation. All pretrial proceedings in
this case were referred to the undersigned pursuant to theprovisions of 28 U.S.C. § 636(b)(1)(A) and
(B) and Local Rule 73.02(B)(2)(g), DSC. This report and recommendation is entered for review by
the district judge.
II.

FACTS
Plaintiff began her employment with DSS on February 9, 2015, when she was hired as a

Child Protective Services Specialist (Human Services Specialist II). PI. Dep. 59-60. Plaintiff was 59
years old at the time she was hired. PI. Dep. 96.
Plaintiff began her employment with DSS as a probationary employee. PI. Dep. 61. DSS
requires that all employees who conduct intake, child protective services (CPS) assessments or
investigations, or carry caseloads in foster care, family preservations, or adoptions, be child welfare
certified. Elmore Aff. ^ 4; Child Protective Services Protective and Preventive Services Manual (Ex.
B to Elmore Aff). According to DSS policy: “Staff must obtain child welfare certification prior to
being assigned cases for CPS assessment, CPS investigation, family preservation, foster care,
adoptions, and/or county foster care licensing.”

Elmore Aff.

4; Child Protective Services

Protective and Preventive Services Manual (Ex. B to Elmore Aff.). To meet this requirement, all
DSS staff are required to complete the Child Welfare Basic Training, a certification program offered
-2-

4:16-cv-03326-RBH

Date Filed 02/13/19

Entry Number 100

Page 3 of 13

by the University of South Carolina Center for Child and Family Studies, in conjunction with DSS.
Elmore Aff., f 5; DSS Directive Memo D14-14 (Ex. C to Elmore Aff.). Employees who fail to
successfully complete the Child Welfare Basic Training course are not permitted to perform child
welfare case management duties and are terminated from their employment with DSS. Elmore Aff.,
^ 6; DSS Directive Memo D14-14 (Ex. C to Elmore Aff.). After being hired, Plaintiff went through
daily meetings with approximately 20 to 30 other employees in which they received instruction and
training. PI. Dep. 63-64, 66-67. During these meetings, Plaintiff and all other employees in
attendance were told that they would take certification testing. PI. Dep. 65, 73.
At the time of Plaintiffs employment with DSS, the Initial Child Welfare Certification
required a score of 85% on the Child Welfare Basic Training examination and successful completion
of the DSS approved Trial Preparation Training. Elmore Aff.

6; DSS Directive Memo D14-14

(Ex. C to Elmore Aff.). In the event that an employee fails to obtain the necessary score on the Child
Welfare Basic Exam, DSS policy provides the County Director may allow the employee to retake
the exam a second time. Elmore Aff. f 6; DSS Directive Memo D14-14 (Ex. C to Elmore Aff.). If
an employee fails the second attempt, DSS policy provides the employee is no longer eligible to
perform child welfare case management duties or may no longer may be employed. Elmore Aff. K
6; Child Protective Services Protective and Preventive Services Manual (Ex. B to Elmore Aff); DSS
Directive Memo D14-14 (Ex. C to Elmore Aff). However, in “extraordinary circumstances,” a third
attempt to pass the examination may be granted at the discretion of the Director of Knowledge
Management and Practice Change. Elmore Aff. H 6; Child Protective Services Protective and
Preventive Services Manual (Ex. B to Elmore Aff.); DSS Directive Memo D14-14 (Ex. C to Elmore
Aff). Plaintiff alleges in her Amended Complaint that “some staff took the test three or more times.
Am. Compl. p. 2.
-3-

Plaintifftook the Child Welfare Basic Training Examination and failed. PI. Dep. 74. She was
then allowed to take the examination again but failed the second attempt as well. PI. Dep. 74,76. On
June 23,2015, Defendant Rasel “Reese” Palmer, Richland County DSS Director, contacted Glenise
Elmore, Employee Relations Director for DSS, and informed her that he wanted to terminate
Plaintiff for failing her certification examination twice. Elmore Aff. ^ 7; Palmer Email (Ex. D to
Elmore Aff.). DSS Human Resources staffreviewed the request and approved Plaintiff s termination
as it was consistent with DSS practice of terminating employees who failed to obtain their
certification. Elmore Aff.

8-9.

On June 24,2015, Palmer met with Plaintiff and notified her that her employment with DSS
was being terminated effective immediately for unsuccessful completion of the Child Welfare Basics
Certification. PI. Dep. 41, 91, 92; Termination Letter (Ex. E to Elmore Aff).
As she was leaving, Plaintiff fell in the parking lot of the Richland County DSS offices. PI.
Dep. 97. She “injured [her] right leg, right knee, lower back and other parts of the body.” Am.
Compl. p. 1. Her supervisor while she was employed with DSS, Roshawnda Gooden, ‘ requested
that she go to the emergency room and let her know what the “Medical Professionals said. Am.
Compl. p. 1. Plaintiff advised Gooden that the hospital was requesting workers compensation
paperwork, but Defendant refused to provide it. Am. Compl. p. 2. She later filed a claim for
workers’ compensation benefits as a result of injuries sustained in that fall. PI. Dep. 97, 98.
On or about October 2, 2015, Plaintiff filed a Charge of Discrimination. On May 19, 2016,
the South Carolina Human Affairs Commission issued a Dismissal and Notice of Right to Sue in
which the agency found no cause. On July 7,2016, the United States Equal Employment Opportunity
Commission adopted the South Carolina Human Affairs Commissions’ findings and issued a
Dismissal and Notice of Rights.

-4-

4:16-cv-03326-RBH

III.

Date Filed 02/13/19

Entry Number 100

Page 5 of 13

STANDARD OF REVIEW
Under Fed.R.Civ.P. 56, the moving party bears the burden of showing that summary

judgment is proper. Summary judgment is proper if there is no genuine dispute of material fact and
the moving party is entitled to judgment as a matter of law. Fed.R.Civ.P. 56(a); Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986). Summary judgment is proper if the non-moving party fails to
establish an essential element of any cause of action upon which the non-moving party has the
burden of proof. Id. Once the moving party has brought into question whether there is a genuine
dispute for trial on a material element of the non-moving party’s claims, the non-moving party bears
the burden of coming forward with specific facts which show a genuine dispute for trial.
Fed.R.Civ.P. 56(e); Matsushita Electrical Industrial Co., Ltd, v. Zenith Radio Corp., 475 U.S. 574
(1986). The non-moving party must come forward with enough evidence, beyond a mere scintilla,
upon which the fact finder could reasonably find for it. Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 247-48 (1986). The facts and inferences to be drawn therefrom must be viewed in the light
most favorable to the non-moving party. Shealy v. Winston, 929 F.2d 1009, 1011 (4th Cir. 1991).
However, the non-moving party may not rely on beliefs, conjecture, speculation, or conclusory
allegations to defeat a motion for summary judgment. Barbery. Hosp. Corp. of Am., 977 F.2d 87475 (4th Cir. 1992). The evidence relied on must meet “the substantive evidentiary standard of proof
that would apply at a trial on the merits.” Mitchell v. Data General Corp., 12 F.3d 1310, 1316 (4th
Cir. 1993).
To show that a genuine dispute of material fact exists, a party may not rest upon the mere
allegations or denials of his pleadings. See Celotex, 477 U.S. at 324. Rather, the party must present
evidence supporting his or her position by “citing to particular parts of materials in the record,
including depositions, documents, electronically stored information, affidavits or declarations,
-5-

4:16-cv-03326-RBH

Date Filed 02/13/19 Entry Number-100

Page 6 of 13

stipulations (including those made for purposes of the motion only), admissions, interrogatory
answers, or other materials.” Fed.R.Civ.P. 56(c)(1)(A); see also Cray Communications, Inc, v.
Novatel Computer Systems, Inc., 33 F.3d 390 (4th Cir. 1994); Orsi v. Kickwood, 999 F.2d 86 (4th Cir.
1993); Local Rules 7.04, 7.05, D.S.C.
IV.

DISCUSSION
A.

ADEA

In her Amended Complaint, Plaintiff alleges that “Plaintiff took the test twice while there
were some staff took the test three or more times. Plaintiff was discriminated against because of her
age by Defendants.” Am. Compl. p. 2. The ADEA makes it unlawful for an employer to fail or
refuse to hire or to discharge any individual or otherwise discriminate against any individual with
respect to his compensation, terms, conditions, or privileges of employment, because of such
individual's age. 29 U.S.C. § 623(a)(1).
As an initial matter, to the extent Plaintiff asserts her ADEA claim against Defendant Reese
Palmer, the claim fails. The ADEA does not provide for causes of action against defendants who
are sued in their individual capacities. See Jones v. Stemheimer, 387 F. App'x 366, 368 (4th Cir.
2010) (per curiam) (recognizing that Title VII, the ADA, and the ADEA “do not provide for causes
of action against defendants in their individual capacities”!; Lissau v. Southern Food Serv., Inc., 159
F.3d 177, 180 (4th Cir. 1998) (noting that the Fourth Circuit rejects claims of individual liability
under the ADEA).
A plaintiff asserting a claim of unlawful employment discrimination may proceed through
two avenues of proof. First, she may establish through direct or circumstantial proof that a protected
characteristic such as age was a motivating factor in the employer’s adverse decision. See Diamond
Colonial Life & Acc. Ins. Co.. 416 F.3d 310, 318 (4th Cir.2005); Hill v. Lockheed Martin
-6-

4:16-cv-03326-RBH

Date Filed 02/13/19

Entry Number 100

Page 7 of 13

Logistics Mgmt., Inc., 354 F.3d 277, 284-85 (4th Cir.2004) (en banc). Direct evidence is defined
as “evidence of conduct or statements that both reflect directly the alleged discriminatory attitude
and that bear directly on the contested employment decision.” Warch v. Ohio Cas. Ins. Co., 435 F.3d
510,520 (4th Cir.2006) (internal quotations omitted). Direct evidence is said to prove a fact “without
any inference or presumptions.” O’Connor v. Consol. Coin Caterers Corn., 56 F.3d 542, 548 (4th
Cir. 1995). Circumstantial evidence must be of sufficient probative force to raise a genuine dispute
of material fact. Evans v. Technologies Applications & Service Co., 80 F.3d 954, 959 (4th Cir.
1996). Plaintiff does not present evidence or allege that she has direct evidence that her termination
was based on her age.
When direct evidence is lacking, a plaintiff may proceed under the burden-shifting proof
scheme established in McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802, 93 S.Ct. 1817, 36
L.Ed.2d 668 (1973). Under this burden-shifting scheme, Plaintiff has the initial burden of
establishing a prima facie case of discrimination. Id. The Fourth Circuit has held that the causation
and burden-shifting standards applicable in Title VII cases as set forth in McDonnell Douglas Corp.
v. Green, 411 U.S. 792, 93 S.Ct. 1817,36 L.Ed.2d 668 (1973)1 are also applicable indiscrimination
or retaliation cases brought pursuant to the ADEA2 “where the defendant disavows any reliance on

‘The McDonnell Douglas analysis was refined in St, Mary's Honor Ctr. v. Hicks, 509 U.S.
502, 113 S.Ct. 2742, 125 L.Ed.2d 407 (1993), and Reeves v. Sanderson Plumbing Products, Inc.,
530 U.S. 133, 120 S.Ct. 2097, 147 L.Ed.2d 105 (2000).
2The Supreme Court has noted that it “has not definitively decided” whether the McDonnell
Douglas framework, first developed in the context of Title VII cases, “is appropriate in the ADEA
context.” Gross v. FBL Financial Sendees, Inc., 557 U.S. 167, 174, 129 S.Ct. 2343, 2349 n.2, 174
L.Ed.2d 119 (2009). In the absence of further direction from the Supreme Court, the undersigned
must follow Fourth Circuit precedent, which applies the McDonnell Douglas framework to ADEA
claims. See Hill 354 F.3d at 285; see also Waters v. Logistics Mgmt. Inst., 716 F. App'x 194, 197
(4th Cir. 2018)(continuing to apply the McDonnell Douglas framework in the ADEA context).
-7-

4:16-cv-03326-RBH

Date Filed 02/13/19

Entry Number 100

Page 8 of 13

discriminatory reasons for its adverse employment action.” Ennis v. Nat'l Assoc. Of Business and
Educ. Radio, 53 F.3d 55, 58 (4th Cir.1995). Under the analysis set forth in McDonnell Douglas,
Plaintiff has the initial burden of demonstrating a prima facie case of discrimination. Bryant v. Bell
Atlantic Maryland, Inc., 288 F.3d 124,133 (4th Cir. 2002). If Plaintiff establishes a prima facie case,
the burden shifts to Defendant to produce a legitimate, nondiscriminatory reason for the Plaintiff s
discharge. Texas Dept, of Community Affairs v. Burdine, 450 U.S. 248, 254 (1981). Once
Defendant has met its burden of production by producing its legitimate, nondiscriminatory reason,
the sole remaining issue is “discrimination vel non.” Reeves v. Sanderson Plumbing Products, Inc.,
530 U.S. 133, 143 (2000)(citing Postal Service Bd. of Governors v. Aikens, 460 U.S. 711, 716
(1983)). In other words, the burden shifts back to Plaintiff to demonstrate by a preponderance of the
evidence that the legitimate reason produced by Defendant is not its true reason, but was pretext for
discrimination. Reeves, 530 U.S. at 143.
To set forth a prima facie case under the ADEA, Plaintiff must establish that: (1) she was a
member of a protected class (at least 40 years old); (2) she was performing at a level that met her
employer’s legitimate job expectations; (3) she suffered an adverse employment action; and (4) that
similarly-situated employees outside of the protected class received more favorable treatment or
there is some other evidence giving rise to an inference of unlawful discrimination. Hill v. Lockheed
Martin Logistics Memt.. Inc., 354 F.3d 277, 2895 (4th Cir. 2004); Anderson v. Westinghousg
Savannah River Co., 406 F.3d 248, 268 (4th Cir.2005). Defendants acknowledge that Plaintiff, at
59 years old, is a member of a protected class and that she suffered an adverse employment action
when she was terminated. However, they argue that Plaintiff was not performing at a level that met
her employer’s legitimate job expectations, nor did similarly situated employees outside the
protected class receive more favorable treatment.
-8-

4:16-cv-03326-RBH

Date Filed 02/13/19 Entry Number 100

Page 9 of 13

The evidence in the record reveals that as a Child Protective Services Specialist, Plaintiffwas
required to successfully complete the Child Welfare Basic Training. Elmore Aff, fflf 4, 5, 6; Child
Protective Services Protective and Preventive Services Manual (Ex. B to Elmore Aff.); DSS
Directive Memo D14-14 (Ex. C to Elmore Aff). Failure to do so rendered Plaintiff unable to
perform the functions of her position. Id. Plaintiff asserts in her Amended Complaint that she
should not have been required to take the test and that no one told her at the time of hire that it was
required. However, she admitted during her deposition that she and the other employees were
informed of the testing requirement. PI. Dep. 65,73. Further, she was provided training along with
other employees prior to taking the test and was then given another opportunity to take the test after
she failed the first one. The policy provides that “at the discretion of the County Director, a
participant who fails that Child Welfare Basic exam may make a second attempt to pass and is
provided an individualized study guide.” DSS Directive Memo D14-14 (Ex. C to Elmore Aff).
Thus, Palmer, as the Richland County DSS Director, was not required to allow Plaintiff to take the
test again but did so in his discretion. Nevertheless, Plaintiff again failed the test.
Once an employee has failed the test twice, the policy provides that termination is
appropriate. Only in “extraordinary circumstances” at the “discretion of the Director of Knowledge
Management and Practice Change with appointing authorities recommendation and justification m
writing” is an employee allowed to take the test for a third time. DSS Directive Memo D14-14 (Ex.
C to Elmore Aff). An email chain including Palmer and others within DSS reveals why Palmer did
not recommend that Plaintiff be allowed to take the test a third time. Palmer Email (Ex. D to Elmore
Aff). The proctor for Plaintiffs second test stated in an email that Plaintiff disregarded or
challenged several rules she had given to the participants prior to the exam. Palmer Email (Ex. D
to Elmore Aff). Plaintiff questioned why she was told not to discuss the exam with anyone outside
-9-

4:16-cv-03326-RBH

Date Filed 02/13/19

Entry Number 100

Page 10 of 13

of the classroom. She also used her phone to text and take a phone call during the test despite being
told to refrain from using cells phones. Palmer Email (Ex. D to Elmore Aff.). Plaintiff also told the
proctor that she would not be coming back to take the test again, and complained that she should not
have to take it at all since she was a licensed social worker. Palmer Email (Ex. D to Elmore Aff.).
Palmer referred to the comments from the proctor and stated “[Plaintiff s] conduct as described
below is why we do not wish to have her take the exam a third time.” Palmer Email (Ex. D to
Elmore Aff.). John Shackelford3 responded that “you need only send the request [to allow for a third
test] for those you feel are committed, passionate, and are exhibiting the skill sets needed to serve
the children and families. For those staff that do not pass the 2nd attempt that do mot meet the
standard you are seeking for your staff can be released.” At that point, Palmer notified Glenise
Elmore, Employee Relations Director for DSS that he would be “moving towards termination of
[Plaintiff].” Palmer Email (Ex. D to Elmore Aff.). Thus, Plaintiff failed to perform at a level that
met her employer’s legitimate job expectations in two respects: she did not pass the required exam
after two attempts, and her conduct “did not meet the standard [Palmer was] seeking for [his] staff.”
Palmer Email (Ex. D to Elmore Aff.). It is well-held that “[i]t is the perception of the decision maker
which is relevant, not the self-assessment of the plaintiff’ that determines if the employee is meeting
the employer’s expectations. See Hawkins v. PepsiCo, Inc., 203 F.3d 274, 280 (4th Cir. 2000).
Plaintiff fails to present evidence to meet this prima facie requirement.
Defendants also argue that Plaintiff fails to show that similarly situated employees outside
her protected class received more favorable treatment. Plaintiff asserts in her Amended Complaint
that other employees were allowed to take the Child Welfare Basic Training examination three or

3Shackelford’s position within DSS is not clear from the record.

-10-

4:16-cv-03326-RBH

Date Filed 02/13/19

Entry Number 100

Page 11 of 13

more times. However, in her deposition, she testifies that she does not specifically know of any
employees who were younger than her who were allowed to take the test more than twice. PI. Dep.
96-97. Defendants assert that Plaintiff points to Gerri Williams and Ashley Holmes as two
employees who were allowed to take the test for a third time. Defendants argue that, even assuming
these two employees were allowed to take the test a third time, Williams was 53 years old and
Holmes was 28 years old. Elmore Aff. 110. Thus, Plaintiff has identified one similarly situated
employee outside of her protected class who was treated differently than she was. Nevertheless, as
discussed above, Plaintiff fails to present evidence sufficient to show that she was meeting her
employer’s job expectations. Therefore, summary judgment is appropriate.
Even assuming Plaintiff has presented sufficient evidence to establish a prima facie case of
age discrimination, she fails to show that Defendants’ reason for her adverse employment action was
pretext for a discriminatory reason. Defendants assert that Plaintiffs employment was terminated
because she failed to pass the Child Welfare Basic Training examination after two attempts. Plaintiff
does not dispute that she failed to pass the exam twice. Thus, the burden shifts back to Plaintiff to
demonstrate by a preponderance of the evidence that the legitimate reason produced by Defendants
is not the true reason, but was pretext for discrimination. Reeves, 530 U.S. at 143. Plaintiff fails to
meet this burden. She does not dispute that DSS policy provides when an employee fails the second
attempt, the employee is no longer eligible to perform child welfare case management duties or may
no longer may be employed. During the years 2014 through 2016, DSS terminated at least 25
r

employees, including Plaintiff, for not successfully completing the Child Welfare Basic Training
examination. Elmore Aff, ^ 9; Termination Chart (Ex. G to Elmore Aff.). Of these 25 employees,
10 were over the age of 40 while the remaining 15 were under the age of 40. Elmore Aff, f 9;
Termination Chart (Ex. G to Elmore Aff). Plaintiff argues, however, that other employees were
-11-

4:16-cv-03326-RBH

Date Filed 02/13/19 Entry Number 100

Page 12 of 13

allowed to take the test three or more times. As discussed above, DSS policy allows the test to be
taken a third time, but only in “extraordinary circumstances.” The records shows only a limited
number of employees were allowed to take the test a third time, and of the two that were given the
opportunity, one was within the protected class and one was not. Additionally, Palmer explained
in an email that he was not recommending that she be allowed to take the test a third time because
of her behavior towards the proctor of her exam. Plaintiff does not dispute this reasoning.
In sum, “[t]he ultimate question in every employment discrimination case involving a claim
of disparate treatment is whether the plaintiff was the victim of intentional discrimination. ”Reeves
v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 153 (2000). Given the evidence in the record,
Plaintiff fails to show that her termination was the result of intentional discrimination because of her
age. Therefore, summary judgment is appropriate.
B.

State Law Claims

Plaintiff also alleges in her complaint that she sustained injuries when she fell m the DSS
parking lot and Defendants refused to provide workers’ compensation benefits. Personal injury
claims sound in tort and, thus, are state law claims. Plaintiff points to no federal law that would give
rise to a cause of action for these claims. Title 28 U.S.C. § 1367(c)(3) provides, in pertinent part,
“[t]he district courts may decline to exercise supplemental jurisdiction over a claim . .. if... the
district court has dismissed all claims over which it has original jurisdiction....” The Fourth Circuit
has recognized that “trial courts enjoy wide latitude in determining whether or not to retain
jurisdiction over state claims when all federal claims have been extinguished.” Shanaghanv. Cahill,
58 F.3d 106 110 (4th Cir. 1995) (holding district court did not abuse its discretion in declining to
retain jurisdiction over the state law claims). See also, ej^, United Mine Workers of Am. v. Gibbs,
383 U.S. 715,726-27, 86 S.Ct. 1130,16 L.Ed.2d 218 (1966); Revene v. Charles County Comm'rs,
-12-

4:16-cv-03326-RBH

Date Filed 02/13/19

Entry Number 100

Page 13 of 13

882 F.2d 870, 875 (4th Cir.1989). In determining whether to retain jurisdiction, courts consider
“the convenience and fairness to the parties, existence of any underlying issues of federal policy,
comity, and considerations of judicial economy.” Shanaghan, 58 F.3d at 110.

Here, the

undersigned recommends that the district judge decline to retain supplemental jurisdiction over
Plaintiff’s state law claim for defamation. There are no issues of federal policy underlying the
remaining state law claim. In addition, comity favors remand since the remaining claims are
quintessential state law questions. In United Mine Workers of America v. Gibbs, 383 U.S. 715,
726,86 S.Ct. 1130,16 L.Ed.2d 218(1966), the Supreme Court cautioned that “[njeedless decisions
of state law should be avoided both as a matter of comity and to promote justice between the
parties, by procuring for them a superfooted reading of applicable law.... if the federal law claims
are dismissed before trial... the state claims should be dismissed as well.” Accordingly, should the
district judge accept the recommendation with respect to Plaintiffs federal claim, it is
recommended that the court decline to exercise jurisdiction over the remaining state law claim.
V.

CONCLUSION
For the reasons discussed above, it is recommended that Defendants’ Motion for Summary

Judgment (ECF No. 68) be granted as to Plaintiffs ADEA claim, that the court decline to exercise
supplemental jurisdiction over Plaintiffs state law claim, and that this case be dismissed in its
entirety.
s/Thomas E. Rogers. Ill
Thomas E. Rogers, III
United States Magistrate Judge
February 13, 2019
Florence, South Carolina
The parties are directed to the important information on the following page.

-13-

326-RBH-TER

Date Filed 01/30/19

Entry Number 93

Page 1 of 3

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
FLORENCE DIVISION
CLARA LEWIS BROCKINGTON,
Plaintiff,
-vs-

SOUTH CAROLINA DEPARTMENT
OF SOCIAL SERVICES and REESE
PALMER,
Defendant.

I.

)

Civil Action No. 4:16-CV-3326-RBH-TER

)
)

1
)
)
)
)
)
)
)
)

ORDER

INTRODUCTION
Plaintiff, who is proceeding pro se, brings this action arising from her employment with

Defendant. Presently before the court are Plaintiffs Motion for Settlement of Claim (ECF No. 59),

!

!

Motion to Compel (ECF No. 63), and Motion for Extension of Time (ECF No. 75). All pretrial
proceedings in this case were referred to the undersigned pursuant to the provisions of 28 U.S.C. §
636(b)(1)(A) and (B) and Local Rule 73.02(B)(2)(g), DSC.
II.

MOTION FOR SETTLEMENT OF CLAIM
In Plaintiffs motion docketed as “Motion for Settlement of Claim,” Plaintiff seeks the

following relief:
Prose Plaintiffs motion is to dispose of any evidence that the Defendants are
attempting for admission concemingrprevious falls, previous injuries, previous jobs,
etc., are not admissible in court and motion is granted by the court.
PrOse Plaintiffs motion(s) are that the claim(s) submitted by the Plaintiff is
granted by the court and not dismissed by the court. Pro se Plaintiff is in agreement
to negotiate claims stated with the Defendants.
Prose Plaintiffs motion is that Reese Palmer remains a part of this case along

II

SOUTH CAROLINA HUMAN AFFAIRS COMMISSION
P.O. Box 4490
Columbia, South Carolina 29240
DISMISSAL AND NOTICE OF RIGHT TO SUE
Clara L Brockington
P.O. Box 3232
Florence, SC 29502

SHAC Complaint Number
4-15-70D,A,R,S,RET

Complainant,
vs.
SC Department of Social Services
1535 Confederate Avenue Ext.
Columbia, SC 29202
Respondent.

/

I

EEOC Deferral As
14C-20J 5-00994
SHAC REPRESENTATIVE;
Lee Ann Rice, StaffCounsel

i
i

TELEPHONE NUMBER: (803)737-7800

The Commission has dismissed your charge for the following reason(s):
□ Untimely
□ Prior court proceeding
O No employee/employer relationship

Milti l

O
□
□

f ■

Complainant failed to state claim
Less than 15 employees
Private membership/nonprofit club

j

V \

cause:
Commission is unable to conclude, based upon the information obtained' during its
investigation, that there has been a violation of the Human Affairs Law, Section 1-13-10 et sea. dfthe
SC Code of Laws of 1976, as amended.
’
1 ’ ;

□

You failed to provide requested necessary information, foiled or refused to appear or be available for
necessary interviews/conferences, or otherwise refused to cooperate to the extent that foe Commission
has been unable to resolve your charge. You have had at least 15 days in which to respond fo our Ifinal
written request.
|
;
i
i

□

The Commission has made reasonable efforts to locate you and has been unable to do so. You have
had at least 30 days in which to respond to a notice sent to your last known address.
•t

□

The Respondent has made a written settlement offer which affords foil relief for the harm you alleged.
You have refused to accept foe final relief offered and/or at least 30 days have expired since1 you
received actual notice of this settlement offer.
i

OCCURS EA^cS™6SSTOsSSSL°^NSSrwSrLSTSUE'WH,CHEVER
i
THE

The parties are reminded that stale and federal laws prohibit retaliation against persons who have exercised their right to inqui re or
tTaS u%^evnmay Vi0,at* ^ hw- Discriraimdon against persons who have cooperated in Commission
prohiblted Th*** pratectI0ns apP'y regardless of the Commission's determmation on the merits df the

A.

/

rt ^ 1}

D- l l. tU>lU>
Date of Issuance

On Beltalf of the Commission;

i

Approving/Authority

i

:!
i.

NEO
Job Title:

Human Services Specialist
II / Sand 04 / P60001112

Agency:

Department of Social
Services

Opening Date:

Thu. 10/30/14

• ErioiovT.g-rit
£s.yrtur:^;es
How to Apply

Closing Date/Time: Continuous
Frequently Asked

State Salary
Range:

$26,139.00 - $48,361.00
annually

Questions

Agency Hiring
Range:

Min:
$30,582.00 Max:$37,250.00

Notify About Future lnh
Vacancies

Job Type:

FTE - Full-Time

Location:

Statewide, South Carolina

Normal Work
Schedule:

Monday - Friday (8:30 5:00)

OHR Home Paoe

Print Job Information J Apply
Job Responsihilit-jgg | j
. . -J ‘ '
--

r-s-T/iVi.:*; , %

111

J;

/.vax../:-

|
m

V'

The position serves as a specialist to plan and
execute case work activities to facilitate safety,
permanence, and well-being of children who have
experienced abuse and/or neglect
Position functions as a professional level specialist
to assess risk and manage safety threats to children
in the custody of the agency. Engage children and
families in development of treatment plans; access
services; monitor behavior change; thoroughly
document activities for the case file; ensure needed
services are linked to care provider; participate In
supervision and legal consults; prepare court;
collaborate with Guardians ad litem; law
enforcement and service providers; testify in courtnake required face to face contacts with children!
amilies, and providers; participate in other
activities related to safety, permanency, and well­
being of children. Adopts, implements, and
aromotes agency values and philosophy in the
course of employment with agency.

http://agency .government] obs.com/sc/defauItcfin?action=viewJob&jobID=996000&hit

..

10/30/2014

/
/

This position selves as a specialist dedicated to
intake. Receives and screens reports of abuse anc
neglect and assesses information to making critica
decisions around the safety of the children involved
Position functions as a professional level specialist
appropriately accepting and screening reports of
abuse or neglect. The position gathers a broad
range of history and information takes into
consideration all information in the decision making
process (present and past CPS involvement, police
reports, background checks, collateral contacts,
economic services, etc.). Thoroughly and accurately
document all information, decisions, and actions
taken in CAPSS. Conduct forma! and informa
assessments and utilize critical thinking skills to
determine whether there are safety threats and/or
level of risk and whether the report constitutes child
abuse or neglect under South Carolina law. Identify
child and family needs and refer families to
appropriate services and resources. Maintains client
and family rights to confidentiality in compliance
with State and Federal laws. Adopts, implements,
and promotes agency values and philosophy in the
course of employment with the agency.
r;

-

? }■ •

This position serves as specialist in Child Protective
Services Assessment/Investigation to plan and
execute case work activities related to assessment
and investigation of child protective services
reports.
Position functions as a professional level specialist
to assess risk and manage safety threats to children
who may have experienced abuse and / or neglect.
Gather and assess information; conduct interviews;
engage children and families in development of
safety plans; assess services; thoroughly document
activities for the case file; ensure needed services
are linked to care providers; participate in
supervision and legal consults; prepare court
documents; collaborate with law enforcement and
service providers; testify in court; make required
face to face contacts with children, families and
providers; participate in other activities related to
safety and well- being of children. Maintains client
and family rights to confidentiality in compliance
with State and Federal laws. Adopts, implements
and promotes agency values and philosophy in the
course of employment with agency.

http://agency.government)obs.com/sc/default.cftn?action=viewJob&jobID

=996000&hit ...

10/30/2014

IU pistil ill III KACluie mac wum ciuuviues tu lauiiiaic

safety, permanence and well-being of children in the
custody of the agency. Position functions as a
professional level specialist to assess risk and
manage safety threats to children in the custody of
the agency. Engage children and families in
development of treatment plans; access services;
monitor behavior change; thoroughly document
activities for the case file; ensure needed services
are linked to care providers. Participate in
supervision and legal consults; prepare court
documents; collaborate with Guardians Ad Litem;
law enforcement and service providers; testify in
court; prepare and present information to the Foster
Care Review Board. Make required face to face
contacts with children, families and providers;
participate in other activities related to safety,
permanency and well-being of children. Adopts,
implements and promotes agency values and
philosophy in the course of employment with the
agency.
NOTE: Must possess a valid Driver’s License.

!
I

I

NOTE: You may be required to drive your personal
vehicle from time to time in the performance of
duties associated with this position.
NOTE: May require over-time hours. Must be able to
travel and work after hours with little or no notice.
NOTE: Must be able and willing to drive and to
transport children and adults.
NOTE: Must be able to lift children and to interact
with children and adults in a positive and supportive
demeanor.
NOTE: Must have the ability to lift up to 10 pounds.
NOTE: Must have the ability to access client’s
homes and other buildings; have a high tolerance
for noise or irate clients, crowded working
conditions.
NOTE: SELECTED APPLICANTS ARE REQUIRED
TO PROVIDE A CERTIFIED OFFICIAL COLLEGE
TRANSCRIPT UPON JOB OFFER.

Minimum and Additional Requirements:
STATE OF SOUTH CAROUNA MINIMUM. TRAINING
AND EXPERIENCE REQUIREMENTS:

http://agency.governmentjobs.com/sc/default.cftn?action=viewJob&jobID=996000&hit_...

10/30/2014

experience. A Bachelor's Degree may be submitted
for the required program experience.
ADDITIONAL REQUIREMENTS MAY BE
AOENc?rDUAL POSmONS ,N ™E
ADDITIONAL REQUIREMEMTSA Bachelor’s Degree in Social Work, Behavioral
Science, or Social Science.
A Bachelor's Degree in any other field and one (1)
year experience in a related field.
NOTE: If any Additional Requirements are listed
above applicants must also meet those Additional
Requirements to be considered for the position.
Preferred Qualifications:
NOTE: These Preferred Qualifications are desirable
but
mandatory, for applicants to be considered
qualified for the position.
" !,
Must possess critical thinking skills to productively
assess and work with a wide variety of people, to
manage conflict, and to advocate for children’s
needs. Working knowledge of child development
family dynamics, statutes, and policies related to
child welfare. Ability to collaborate with individuals
families, and service agencies in the provision of
services. Skills in assessment and interviewing:
strong
written
and
oral
communication,
interpersonal relationships, collaboration and
treatment planning.

Possess critical thinking and judgment skills to
assess each report for safety threats or the
appropriate level of risk. Proficient in the use of
intake tools and effective documentation. Adept at
using active listening and interview skills to elicit
pertinent information from reporters of child abuse
and neglect Strong written, oral, and interpersonal
communication skills. Knowledge of fact-gathering
methods and interviewing techniques.
Knowledge of state and federal laws, rules, and
regulations. Knowledge of Human Services policy
and procedures. Knowledge of community
resources. Ability to collaborate ninth individuals,
families, and service agencies in the provision of

http://agency.goveramentjobs.com/sc/default.cfm?aclion=viewJob&joblD=996000&hit

.

10/30/2014

services. I'lUliciem wiu i wimu vvciiaic aim
Economic Services software and computer systems
(CAPPS, CHIPS, SCOSA, etc.).
'.r'. >■*.*' •

■■•■.vr.h■;tv::-r

•

- vest
— »„•

?;~;ca

Must possess critical thinking skills to productively
assess and work with a wide variety of people, to
manage conflict and to advocate for children’s
needs. Working knowledge of child development,
family dynamics, statutes and policies related to
child welfare. Skills in assessment and interviewing;
strong
written
and
oral
communication,
interpersonal relationships, collaboration, safety
planning. Ability to collaborate with individuals,
families and service agencies in the provision of
services. Maintains client and family rights to
confidentiality in compliance with State and Federal
laws. Must be able to manage work within
prescribed timeframe.

Must possess critical thinking skills to be able to
productively work with a wide variety of people, to
manage conflict, assess risk and safety, and to
advocate for children’s needs. Knowledge of child
development, family dynamics, statutes and policies
related to child welfare. Skills in assessment, strong
written and oral communication, interpersonal
relationships, collaboration, treatment planning.
Ability to collaborate with individuals, families and
service agencies in the provision of services.
Maintains client and family rights to confidentiality
in compliance with State and Federal laws.
Additional Comments:
IF YOU HAVE ANY PERIODS OF TIME WHEN YOU
WERE NOT EMPLOYED YOU MUST ALSO LIST
THOSE PERIODS ON YOUR EMPLOYMENT
APPLICATION. A RESUME CAN NOT BE
SUBSTITUTED FOR COMPLETING WORK HISTORY
AND
EDUCATION
SECTIONS
OF
THE
EMPLOYMENT
APPLICATION.
EMPLOYMENT
APPLICATION WILL BE CONSIDERED INCOMPLETE
AND NOT FORWARDED.
*** DIVISION:
DIVISIONS ***

HUMAN SERVICES / MULTIPLE

*** LOCATION: STATEWIDE ***

http://agency.govemmentjobs.com/sc/default.cfm?action=viewJob&jobro=996000&hit_...

10/30/2014

• /
/
/

ouujevi:

rvv. rticmana uouniy uaa interview i i/0/iJ014 1U:UU am

From:

Jackson, Alysha (Alysha.Jackson@dss.sc.gov)

To:

papookelly@yahoo.com;

Date:

Tuesday, November 4,2014 12:47 PM

3

Good Afternoon,

This message is to confirm that you have been scheduled for an employment interview
on 'v . at
? ; -a: with the Human Resource
Management Team, located at Richland County DSS, 3220 Two Notch Road,
Columbia, SC 29204. This is a lengthy process and ask that you plan to be here
: :.i7s.

Please view the video located at the link below and answer the questions to the video
response form. This video may be used as a discussion point.
hHg^teg±vnirtMbe.eom/wat€h?v=-SF9DkWOBvE&featiire=yotttu.be

We ask that you arrive on time. There’s no need to stand in line, please be seated and
someone will come out and escort you to the back.

Photo ID
Social Security Card (must be signed)
Two References (Use attached reference form. Name and Contact Monnation Only
we will contact them.)
Bank Information
Video Response Form

https://us-mg6.mail.yahoo.com/neo/launch?.rand=a3tOt2hf5elvO

11/4/2014

Thank you,

r
Alysha Jackson
ii

SC Department of Social Services
Richland County Human Resource Liaison

>
’i

Ph: 803.714.7388
Fax: 803.714.7301

https://us-mg6.mail.yahoo.eom/neo/l aunch?.rand=a3t0t2hf5elv0

4
i

i

■i

i

11/4/2014

s-ormeriy Known as l-i i-nronrnent

//•

Sdenfed'C?

ii'f- MarphOlriisJ USA

&

South Carolina Registration
Registration Completed for Clara Lewis Rrnrkinotnn
Appointment Details
Location
Columbia
Ashland Park Shopping Center
612 St. Andrews Road, Space 8
Columbia, SC 29210
United States

Appointment
Date: 11/12/2014
Time: 01:45 PM
Registration ID
A114752708X

Payment Details
No onsite payment is required.
Reminders
Please bring your valid SC Driver’s License to your fingerprint appointment. If you do not
have a valid SC Driver's License, you will need two forms of other State or Federal issued
ID; one of which will need to be a photo ID. If you are unable to make your appointment,
contact MoiphoTrust USA at least one day before your appointment at (866) 254-2366 with
your registration number to reschedule.
Application Details (1)
ORI Number: SC920090Z - DSS Child Care
Fingerprint Reason: 12 - PERSONNEL - EMPLOYEE
OCA Number: PERSONNEL
If you have any questions with the website,
please contact MorphoTrust Enrollment Services at (866) 254-2366.
COPYRIGHT © 2004-2014MORPHOTRUST USA, FORMERLY L-l ENROLLMENT

https://sc.ibtfingeiprint.com/

11/5/2014

Subject: Employment Start Date February 9,2015 8:30am
From:

Jackson, Alysha (Alysha.Jackson@dss.sc.gov)

\

To:
Date:

Friday, February 6,2015 10:14 AM

p
Good Morning,

We are so excited to have you join our Richland County DSS Team
and look forward to you starting with us on Monday. February 9,
2015 at 8:30am at our Rbz Hid County DSS office located at
Ji20 Two IToteh Road. It is important that you be on time. I will
come out to meet you that morning. I will also have a new hire
package to give to you. You will need that for Wednesday,
February 18th new hire orientation. The orientation will be held at
9:00am at the State Office (1535 Confederate Ave), Room 310.
They will go over your benefits and you will fill out paperwork
necessary to get that started. Once orientation is over, you will
come here to the DSS office. If you have any question please don’t
hesitate to ask.

If you haven’t already done so, Please request an official transcript mailed
to HRM
Our address is:
Human Resources Management Division
Attn: Employment Unit (Sarah Hill)
1535 Confederate Ave. Extension
Columbia, SC 29202

https://us-mg6.mail.yahoo.com/neo/Iaunch7.raiKN9ijdp0bvb562s

2/7/2015

-

transcript email to: Sarahchristiae.inli-'&dss.sg.goy

-v

Ja.

•e- ?

y

/

See you Monday!
t

Alysha Jackson
Rich-land County DSS “Excellence Lives Here”

!

Human Resources Liaison
Rich-land County Department of Social Services

■;

i

Ph: (803)714-7388
Fax: (803)714-7301

i

i

"'We Bert Brt rt B

https://us-mg6.mail.yahoo.com/neo/launch?.rand=9rjdp0bvb562s

t

i

j

2/7/2015

■/'-

* uw mission or the South c

r

n

:

/
/

-^WSK^C2S*W4Sl'S=rC31„
j

:

i

https://dss.sc.gov/content/ab

f

out/index.aspx

s

2/7/2015
i
•i

you have been so instrumental in the hiring process.
Clara Lewis Brockington
New Hire
On Thursday, January 29,2015 8:45 AM, "Jackson, Alysha" <Alysha.Jackson@dss.sc.gov> wrote:

Good Morning,
Richland County DSS Hiring j
Management would like to extend an offer of employment to you
beginning on MoD; 1 Once you have made your
decision, check the appropriate box, sign and date it, and email it
back to me. Please note, we need a response no later than Fil ay
v
S0, 2315 I have also attached the W-4 for 2015. i
-1

Thank you,

Alysha Jackson
Rich-land County DSS “Excellence Lives Here”
Human Resources Liaison
Rich-land County Department of Social Services
Ph: (803)714-7388
Fax: (803)714-7301
am Don't rail, Wo

https://us-mg6.mail.yahoo.com/neo/launch? ,rand=e440113sdk42b

t

1

1/29/2015

£1

r

Job Title:

Human Resources Manager I / Band 05 / P51D150S5

Agency:

Department of Social Services

Opening Date:

Wed. 09/17/14

Closing Date/Time:

Continuous

State Salary Range:

$31,805.00 - $58,848.00 annually

Agency Hiring Range:

Min: $31,805.00 Max:$45,326.00

How to Annlv

Job Type:

FTE - Full-Time

Location:

Richland County, South Carolina

Normal Work Schedule:

Monday - Friday (8:30 - 5:00)

- Frequently Asked
Questions
Notify About Future Job
Vacancies
OHR Home Page

Print Job Information | AdpIu
Job Responsibilities 1

Ssr.eflls || Sugplemsntal Qi-iastions 1

*r *T'-rsis

a

Additional

^sposm;s. £r‘&r.z:&;.!ot

- Plan, direct and supervise the activities or the classification department: Analyze, review, and oversee all actions
pertaining to the classifications of positions, and employee classification. Supervision includes the
review/distribution of actions to subordinate staff pertaining to agency positions, employees, and other
associated classification activities. Directs, coordinates, evaluates, and maintains current and archived position
description.
- Oversee the accountability of allocated positions to include production/maintenance of organizations charts,
establishment, and deletion of FTE’s and temporary grant positions. Assist Oirector/Assistant Director with
balancing agency FTE’s as required or directed which includes review/distribution of actions to subordinate staff
that impacts position allocatioa
- Administer the agency’s compensation plan in accordance with the Office of Human Resource and agency
regulations which includes the review and distribution of actions to subordinate staff pertaining to agency
actions, employees, and association compensation activities.
- Assist in ensuring organizational management including but not limited to, supervisor and location changes,
organizational structure establishment and position updates.
NOTE: APPLICANTS SELECTED ARE REQUIRED TO PROVIDE A CERTIFIED OFFICIAL COLLEGE TRANSCRIPT
UPON JOB OFFER.
Minimum and Additional Requirements:
STATE OF SOUTH CAROLINA MINIMUM. TRAINING AND EXPERIENCE REQUIREMENTS:
A Bachelor's Degree and experience in human resources management programs.
ADDITIONAL REQUIREMENTS:
A Master's Degree or Bachelor's Degree in Human Resources.
A Master's Degree in any other field and one (1) year of experience in Human Resources
Management programs.
A Bachelor's Degree In any other field and two (2) years of experience in Human Resources
Management programs.
Preferred Qualifications:

-

y; y

r-ssvio-js

-t*-'. ns—.- nor

■-

MflF; These Preferred Qualifications are desirable, but not mandatory, for applicants to be considered qualified
for the position.

Additional Comments:
*** IF YOU ATTACH A . RESUME, ALL WORK HISTORY AND BMJCATION INFORMATION THAT IS LISTED ON
YOUR RESUME MUST BE ON YOUR EMPLOYMOIT APPLICATION. IF YOU HAVE ANY PERIODS OF TIME WHEN
YOU WERE NOT EMPLOYED YOU MUST ALSO LIST THOSE PERIODS ON YOUR EMPLOYMENT APPLICATION. A
RESUME CAN NOT BE SUBSTITUTED FOR COMPLETING WORK HISTORY AND EDUCATION SECTIONS OF THE
EMPLOYMENT APPLICATION. EMPLOYMENT APPLICATION WILL BE CONSIDERED INCOMPLETE AND NOT
FORWARDED. *"*

http ://agency .govemmentjobs.com/sc/default. cfm?action==viewJob&jobID=965726&hit_...

10/31/2014

uuqcbl.

r\e. diipiuyiiicm v-mci i_euci

From:

Papoo Kelly (papookelly@yahoo.com)

To:

Alysha.Jackson@dss.sc.gov;

Date:

Thursday, January 29,2015 2:08 PM

From: Clara Lewis Brockington (oapoc ^sllvr&yahoc.com)
Date: January 29, 2015
Re:
Offer Letter dated January 28, 2015

4>

v

i\

After receiving your offer letter today, January 29, 2015,1 was elated to know that my
personnel file has been completed
Date: January 29, 2015
Re:
Offer Letter

This e-mail is to inform you that I received your offer letter dated January 29, 2015 (dated
January 28, 2015). However, as we discussed via phone earlier, I am somewhat
disappointed in the minimum offer of $30,582 and following your request to send this e-maji
to ask that the Human Resources Manager review my resume again and let's negotiate a
salary that will be accommodating for colossal amount of work experience, skills knowledge
and degrees.
’
As my resume reveals, I have an Associate Degree as a Paralegal, a Bachelor's Degree in
Social Work and a Master's Degree in Administration. I have over 20 years of experience,
knowledge and skills in social work, counseling, etc., as well as about 20 years of
experience as a Program Director, Supervisor and Coordinator. As stated on my
interview by your three staff, I have a wealth of knowledge, experience and skills as a Social
Worker, Counselor, Coordinator, Supervisor, Program Director and Paralegal, which
includes counseling, assessments, interviewing, case management, supervising,
coordinating, directing, mediating, advocating, mentoring, teaching, court liaison, etc. I have
over 20 years of experience interacting with the Department of Social Services, which is not
a new entity for me.
As we discussed today, my present salary is over $40,000 due to my education, knowledge,
skills and experience. I am very interested in accepting this position at $40,000. Please
understand that it would not be advantageous to me to accept a starting salary of $30,582
with my enormous education, skills, knowledge and experience. I want to be an asset to
your agency and willing to utilize all my resources and professionalism to assist in moving
the agency forward. Please let’s negotiate on this matter with your Human Resources
Manager today and I am sure you will be in agreement with this request so that I may
finalize all my paperwork today.
Look forward to hearing from you today in order that I may begin making preparations for my
start date on February 9th, 2015. I can be reached by e-mail or (843) 616-1317. Thanks in

https://us-mg6.mdl.yahoo.com/neo/launch7.rancNe440113sclk42b

1/29/2015

!?

Serving Children and Families

V. SUSAN ALFORD
STATE DIRECTOR

NIKKI R. HALEY
GOVERNOR

June 24,2015

V
£

Hand Delivered
Ms. Clara L. Brockington
4021 Percival Road #1113
Columbia, SC 29201
Dear Ms. Clara L. Brockington,

•i

!■

eXemPte y0U *» W

under the

Wongtagsprioetoleaving. We
Sincerely,

/./;

Reese L.
Imer, MFT
Richland County Director

■

i

cc: Human Resource File
i

i

°\

